Nos. 19-416, 19-453

 

 

IN THE

Supreme Court of the United States

NESTLE USA, INC., PETITIONER,
v.

JOHN DOE I, ET AL.

CARGILL, INC., PETITIONER
v.

JOHN DOE I, ET AL.

ON WRIT OF CERTIORARI TO THE
U.S. COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF AMICI CURIAE THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA, THE NATIONAL ASSOCIATION OF
MANUFACTURERS, THE NATIONAL FOREIGN
TRADE COUNCIL, GLOBAL BUSINESS ALLI-
ANCE, AND UNITED STATES COUNCIL
FOR INTERNATIONAL BUSINESS
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,673 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 8, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
